@OCKLE

2311 Douglas Street ; E-Mail Address:
Omaha, Nebraska 68102-1214 Le ga 1B rt ie fs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No.
DAVINCI AIRCRAFT, INC.
Petitioner,
Vv.
UNITED STATES OF AMERICA, ET AL.,
Respondents,
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 14th day of August, 2019, send out
from Omaha, NE | package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
ABRAHAM R. WAGNER
Counsel of Record
CHARLES NICHOLAS ROSTOW
LAW OFFICE OF ABRAHAM WAGNER
1875 Century Park East, Suite 700
Los Angeles, CA 90067-3301
(310) 552-7533
abraham.wagner@gmail.com

Counsel for Petitioner

Subscribed and sworn to before me this 14th day of August, 2019.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

some » CCl Qudaaw-h, lle

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38331
Noel J. Francisco

Solicitor General of the United States
U.S. Department of Justice

Room 5616

950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001

(202) 514-2217
supremectbriefs@usdoj.gov
